<html>
<title> - THE GLOBAL MAGNITSKY HUMAN RIGHTS ACCOUNTABILITY ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                  THE GLOBAL MAGNITSKY HUMAN RIGHTS 
                         ACCOUNTABILITY ACT

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-65

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
94-388PDF                  WASHINGTON : 2015                       
                                 
                                 
________________________________________________________________________________________  
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cdaabda28daeb8beb9a5a8a1bde3aea2a0e3">[email&#160;protected]</a>  
                               
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
TOM EMMER, Minnesota
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. William Browder, chief executive officer, Hermitage Capital 
  Management.....................................................     6
Ms. Rebiya Kadeer, president, World Uyghur Congress..............    12
Mr. Kenneth R. Weinstein, president and chief executive officer, 
  Hudson Institute...............................................    17
Daniel Calingaert, Ph.D., executive vice president, Freedom House    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. William Browder: Prepared statement..........................     9
Ms. Rebiya Kadeer: Prepared statement............................    14
Mr. Kenneth R. Weinstein: Prepared statement.....................    20
Daniel Calingaert, Ph.D.: Prepared statement.....................    27

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations, and 
  written responses from:
  Mr. William Browder............................................    40
  Mr. Kenneth R. Weinstein.......................................    41


          THE GLOBAL MAGNITSKY HUMAN RIGHTS ACCOUNTABILITY ACT

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2255 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon. I apologize to our witnesses and guests for the 
delay. We did have a series of votes, and we can never 
anticipate that. So I want to apologize for that rather 
significant delay of \1/2\ hour.
    The Sergei Magnitsky Rule of Law Accountability Act of 2012 
directed the President to publish and update a list of each 
person the President has reason to conclude was responsible for 
the detention, abuse, or death of Sergei Magnitsky, a leader 
and accounting advisor with Firestone Duncan, an international 
law and accounting firm with offices in Moscow and London.
    William Browder, chief executive officer of Hermitage 
Capital Management, Limited, one of today's witnesses and a 
driving force behind the 2012 Magnitsky Act and the legislation 
that has now been introduced and is pending before our 
committee, has provided a detailed account of the violent 
expropriation of the assets of Hermitage, the largest foreign 
investment brokerage in Russia, by rampant Russian Government 
corruption, bribery, fraud, forgery, cronyism, and outright 
theft.
    Magnitsky had documented Hermitage's loss and other 
financial dealings, including draining some $230 million from 
the Russian Treasury by tax fraud. He was arrested in November 
2008 reportedly for tax evasion, and denied medical care, 
family visits, or due legal process, while in custody. He was 
beaten and tortured and died in prison in November 2009. He was 
37 years old and married with two young children.
    The Sergei Magnitsky Rule of Law Accountability Act of 2012 
targeted those who participated in related liability 
concealment efforts, financially benefitted from Sergei 
Magnitsky's detention, abuse, or death, or were involved in the 
criminal conspiracy uncovered by Magnitsky or responsible for 
extrajudicial killings, torture, or other human rights 
violations committed against individuals seeking to expose 
illegal activity carried out by Russian officials or against 
persons seeking to promote human rights and freedoms.
    The act directed the Secretaries of State and Treasury to 
annually report to Congress on actions taken to implement the 
act, including rejecting visa applications, revoking existing 
visas, and blocking property transactions for persons the 
President put on the Magnitsky list.
    The United States is, as we all know, the land of 
opportunity, but it should not be for those who misused and 
murdered Sergei Magnitsky. Without the original act, the 
government officials and business people who perpetrated crimes 
against a young man, against a major international firm, and 
against even the Russian people themselves by stealing from 
them could have taken their ill-gotten gains and come to this 
country to purchase property and live the good life in the 
United States.
    Today's hearing will examine the need for H.R. 624, the 
Global Magnitsky Human Rights Accountability Act, which extends 
these human rights and anti-corruption tools to other 
countries. The House passed the 2012 Magnitsky Act by a vote of 
365 to 43, and there is a strong majority-minority co-
sponsorship for H.R. 624.
    Since the original Magnitsky Act became law in December 
2012, human rights victims and advocates from around the world 
and anti-corruption champions have asked for a Global Magnitsky 
Act, first asking that such acts be enacted for specific 
countries.
    H.R. 624 ensures, with minimal cost or burden to the U.S., 
that our Government gives some justice to victims and stands in 
solidarity with them in a tangible way, shines a spotlight on 
perpetrators making them pariahs, and pressures governments to 
prosecute perpetrators who are their citizens.
    The Global Magnitsky Act is intended to destruct the 
impunity and comfort that far too many international human 
rights violators currently enjoy, and to keep their tainted 
money out of our financial systems. It also fights the human 
rights abuses and corruption that generate national security 
terrorism and economic threats to the United States.
    A few years ago Teodorin Obiang Mangue, son of the 
President of Equatorial Guinea, visited the United States 
regularly using funds siphoned from American companies 
operating in his country. He lived a glamorous life in Malibu, 
California, dating celebrities and collecting expensive cars. 
When France issued a warrant for his arrest after he refused to 
appear at a money laundering hearing, his father provided him 
with diplomatic immunity to escape prosecution.
    In 2012, June, after years of trying to track Teodorin's 
wealth, the U.S. Department of Justice finally filed a lawsuit 
in California court alleging massive money laundering and 
listing among the scandalous kettle of assets his $35 million 
Malibu mansion with a four-hole golf course, tennis court, and 
two swimming pools. That is just one of the acquisitions he 
made in the United States.
    The financial manipulations of this young man led in part 
to the closing of Riggs Bank in Washington, one of the 
capital's premier financial institutions. Such people should 
not be able to steal from foreign firms and their own people 
and then use those funds to live lavishly in our country.
    Similarly, those who torture and otherwise commit the worst 
human rights violations against others should not be welcomed 
here either. And I have written legislation over the years to 
enforce that principle. The Ethiopia Freedom, Democracy, and 
Human Rights Advancement Act of 2006 would have prevented 
officials who ordered the callous shooting of peaceful 
demonstrators in Ethiopia from entering this country.
    The Foreign Relations Act for Fiscal Years 2000 and 2001 
became law--I was the prime sponsor of it--and it required the 
U.S. Government to impose visa bans on any foreign national the 
Secretary of State has determined is directly involved in 
establishing or enforcing population control policies that 
force a woman to undergo abortions against her will or force a 
man or woman to undergo sterilizations against their will.
    And then there is the Belarus Democracy Act of 2004 and its 
reauthorizations, which also became law, that imposed visa bans 
and asset freezes on government officials from the Government 
of Belarus because of their violations of basic human rights 
and freedoms, and that has now malaffected, as it should, one 
of the last dictators in Europe, Alexander Lukashenka, and his 
cronies.
    If we stand by quietly when governments refuse to prosecute 
human rights abusers and financial fraudsters, then we welcome 
those guilty of such crimes into the U.S. and into our 
financial systems, we are indeed enabling their crimes. The 
2012 Magnitsky Act was a major step in freeing ourselves from 
aiding and abetting international perpetrators.
    H.R. 624 makes the next step in taking a stand against 
their crimes. If we are serious about rejecting their deeds, 
perhaps their governments and other governments will become 
more serious as well.
    I would like to yield to Ms. Bass, the ranking member of 
the subcommittee.
    Ms. Bass. Thank you, Chairman Smith, for your leadership 
and for calling today's hearing on the Global Magnitsky Human 
Rights Accountability Act, to give us an opportunity to discuss 
the need to examine the act toward a global vehicle to hold 
individuals accountable for human rights abuses.
    I would also like to thank our distinguished witnesses for 
today, including representatives from a range of organizations 
concerned with global human rights issues. I look forward to 
hearing each of your perspectives, including your assessment of 
what more can be done to successfully expose and address gross 
violations of human rights around the world.
    Dealing with issues of corruption and impunity are 
challenges to national governance worldwide. These challenges 
become particularly pronounced when governments seek to silence 
citizens who promote human rights or seek to expose illegal 
activities by those governments, be they journalists, 
intellectuals, or other kinds of activists and whistleblowers. 
To be clear, we know that this silencing takes multiple forms, 
including illegal detention, torture, and extrajudicial 
killings.
    Again, I want to thank today's witnesses for their time and 
insight and look forward to working with my colleagues in 
Congress to further develop legislation to address global human 
rights abuses and increase the accountability of governmental 
officials who violate citizens' human rights.
    I yield back.
    Mr. Smith. Thank you, Ms. Bass.
    I would like to now recognize Mr. Emmer.
    Mr. Emmer. Thank you, Mr. Chairman. Thank you for holding 
this important hearing. As a co-sponsor of the Global Magnitsky 
Human Rights Accountability Act, I feel it is important and 
necessary for us to hold human rights abusers accountable, and 
I appreciate the opportunity to be part of this hearing. Those 
who abuse human rights must face serious consequences, and this 
hearing, along with the Accountability Act, will strengthen the 
President's ability to sanction human rights abusers.
    I look forward to hearing from our panel of witnesses, and, 
again, thank you, Mr. Chairman and the ranking member, for 
holding this important hearing, and I yield back.
    Mr. Smith. Thank you, Mr. Emmer.
    The chair recognizes Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you, 
Ranking Member Bass, for holding today's hearing, and thank you 
especially, Chairman Smith, for your long leadership on human 
rights. All people deserve to be respected and to live their 
lives free from violence, persecution, discrimination, and 
oppression.
    Protecting fundamental human rights is an important 
responsibility. It should and must remain a cornerstone of 
American foreign policy, which is why the United States has a 
responsibility to respond to egregious human rights abuses by 
imposing sanctions on those who commit or contribute to human 
rights violations.
    Last Congress I introduced the Global Respect Act, which 
would direct the President to impose visa sanctions on foreign 
persons who commit egregious human rights violations on the 
basis of sexual orientation or gender identity. I think it is 
important to recognize the particular plight faced by LGBT 
individuals around the world, especially as many continue to be 
victims of violence and murder at shocking rates.
    This bill ensures that we take that approach, a 
comprehensive approach, to protecting human rights and to be 
certain that those who are responsible for human rights 
violations are held accountable. It is critically important to 
continue to protect the basic human rights of all individuals, 
all vulnerable and marginalized populations.
    The United States must be vigilant in protecting the human 
rights of racial, ethnic, linguistic minorities, women, and 
children, religious minorities, and political dissidents, among 
others. That is why I am very proud to co-sponsor the Global 
Magnitsky Human Rights Accountability Act.
    I look forward to the testimony from our very distinguished 
panel, and thank you, again, Mr. Chairman, for calling this 
hearing. And with that, I yield back.
    Mr. Smith. Thank you very much.
    I would like to now introduce this very distinguished panel 
of doers and shakers, men and women, who have made a tremendous 
difference in the lives of especially those who have had their 
human rights violated around the globe.
    Beginning first with Bill Browder, who is founder and CEO 
of Hermitage Capital Management. He was the largest foreign 
investor in Russia until November 2005 when he was denied entry 
to the country and declared a threat to national security by 
the Russian Government for exposing corruption at large Russian 
companies.
    In 2008, Russian authorities arrested and imprisoned his 
lawyer, Sergei Magnitsky, after Mr. Magnitsky uncovered and 
reported a $230 million fraud committed by the Russian 
Government officials. Mr. Magnitsky was tortured and denied 
medical help in prison for months, and finally beaten to death 
by prison guards in November 2009.
    Bill Browder has since led a global campaign to expose the 
corruption and human rights abuses endemic in Russia. A result 
of this campaign was the Sergei Magnitsky Rule of Law 
Accountability Act of 2012 being signed into law, imposing visa 
bans and asset freezes on certain officials involved in 
Magnitsky's death and on other gross violations of human rights 
in Russia.
    We will then hear from Ms. Rebiya Kadeer, who is a 
prominent human rights advocate and leader of the Uyghur 
people. She is the mother of 11 children and a former laundress 
turned millionaire. She spent 6 years in a Chinese prison for 
standing up to the authoritarian Chinese Government. Before her 
arrest in 1999, she was a well-known Uyghur businesswoman, and 
at one time among the wealthiest individuals in the People's 
Republic of China.
    Ms. Kadeer has been actively campaigning for the human 
rights of the Uyghur people since her release. As a matter of 
fact, she has appeared before this subcommittee at least a half 
a dozen times, and we have benefitted greatly from her wise 
counsel and insight.
    She has been nominated for the Nobel Peace Prize several 
times since 2006, despite the Chinese Government's efforts to 
discredit her. Ms. Kadeer remains a leading pro-democracy 
Uyghur leader and heads the World Uyghur Congress, which 
represents the collective interests of the Uyghur people around 
the world.
    We will then hear from Mr. Kenneth Weinstein, who is 
president and chief executive officer of the Hudson Institute. 
He joined the Institute in 1991 and was appointed CEO in June 
2005. Mr. Weinstein was the president and CEO in March 2011. A 
political theorist by training whose academic work focuses on 
the early Enlightenment, Mr. Weinstein has written widely on 
international affairs for leading publications in the U.S., 
Europe, and Asia.
    He serves as a member of the Broadcasting Board of 
Governors, the oversight body for U.S. Government civilian 
international media, including such networks as Voice of 
America, Radio Free Europe/Radio Liberty, Radio Free Asia, and 
Middle East Broadcasting.
    We will then hear from Dr. Daniel Calingaert, who is an 
executive vice president at Freedom House. In his role, he 
oversees Freedom House's contributions to policy debate on 
democracy and human rights issues and outreach to the U.S. 
Congress, foreign governments, media, and Freedom House 
supporters.
    He previously supervised Freedom House's civil society 
programs worldwide. He contributes frequently to policy and 
media discussions on democracy issues, including Internet 
freedom, elections, authoritarian regimes, and democracy 
assistance.
    He taught at Georgetown, Johns Hopkins, and American 
University. He served as director for Asia, as a deputy 
director for Eastern Europe at the International Republican 
Institute, where he designed and managed a wide range of 
promotion programs.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I appreciate the 
indulgence. I just want to welcome the students who are here 
from Shea High School in Pawtucket, Rhode Island, my 
constituents, and welcome them to the subcommittee. You guys 
should stand up, and we would like to recognize you. Thanks for 
being here.
    [Applause.]
    Mr. Cicilline. Thank you, Mr. Chairman.
    Mr. Smith. Mr. Browder.

  STATEMENT OF MR. WILLIAM BROWDER, CHIEF EXECUTIVE OFFICER, 
                  HERMITAGE CAPITAL MANAGEMENT

    Mr. Browder. Chairman Smith, Ranking Member Bass, and 
members of the subcommittee, thank you very much for giving me 
the opportunity to address you today.
    The name of the law which is being considered is Sergei 
Magnitsky. Sergei Magnitsky was my lawyer in Russia, and Sergei 
Magnitsky worked for me trying to uncover government corruption 
in Russia, which led to an astounding discovery that government 
officials, working together with organized criminals, had 
stolen $230 million of taxes that we paid to the Russian 
Government, not from us but from the Russian Government.
    And Sergei, as a patriot, testified against the officials 
involved, thinking that it should not be allowed that 
government officials should steal from their own country. And 
he thought that the President of Russia, Vladimir Putin, was 
someone who was acting in the national interest, and if this 
$230 million theft was exposed that the good guys would get the 
bad guys and that would be the end of the story.
    Instead, after Sergei testified against the officials, the 
same officials he testified against arrested him, put him in 
pretrial detention, tortured him in the most horrific way for 
358 days, and killed him on November 16, 2009.
    I got the news on the 17th of November, in the morning of 
his murder. And it was by far the most horrific, traumatic, 
life-changing news that I could ever get, and I made a vow to 
his memory, to his family, and to myself, that I was going to 
make sure that we saw justice for Sergei Magnitsky, and that 
his death would not be a meaningless death.
    And for the last 5\1/2\ years I have been on a quest to get 
that justice and to bring some meaning to his death, so that 
something good, possibly good, could come out of it. And 
originally I thought we could get justice inside of Russia. The 
details of this death were not a matter of speculation. He 
wrote everything down in the form of 450 complaints he filed in 
his 358 days in detention, documenting exactly who did what to 
him, when, how, where, and why. And those details should have 
been enough to prosecute more than a dozen people.
    Instead, they prosecuted nobody. They exonerated everybody 
involved, and on the 1-year anniversary of Sergei's death they 
gave special state honors to some of the people who were most 
complicit. There are only two people who have ever been 
prosecuted in this case. Three years after Sergei's death 
Sergei Magnitsky himself was prosecuted posthumously in the 
first-ever trial against a dead man in the history of Russia, 
and I was prosecuted as his co-defendant and sentenced to 9 
years in absentia.
    It became obvious that if we couldn't get justice inside of 
Russia, we needed to get justice outside of Russia. So I 
started traveling the world looking for justice, and I 
discovered that there actually aren't any mechanisms for 
international justice. They just don't exist. The best you can 
do is go to the State Department and have them possibly issue a 
statement, or go to the British Foreign Office and have them 
say that they are disappointed with somebody's death.
    And so I started to look around to see what kind of justice 
could we get if we could invent our own mechanism for justice, 
and this crime was perpetrated for the theft of $230 million, 
and the people who did this crime wanted to not keep their 
money in Russia but keep it in the West, and they like to 
travel to the West, and send their kids to school in the West, 
and have their family members go shopping in the West.
    And so I came to this room, this exact room, in 2010, and I 
told the story I have just told you in front of the Lantos 
Commission on Human Rights in front of Congressman McGovern. 
And I said, ``Can you do something about this?'' And he came up 
with the idea of what has now become known as the Sergei 
Magnitsky Act, which was to freeze assets and ban visas of the 
people who killed Sergei Magnitsky.
    The act was originally just for Sergei Magnitsky, and then 
a number of people started coming forward, including Boris 
Nemstov, an opposition leader from Russia, who said, ``You have 
hit the Achilles heel of the Putin regime by doing this. They 
like to commit their crimes in Russia, but they like to enjoy 
their money in the West. Could you please expand this so it 
includes the other gross human rights abusers in Russia?''
    And Congressman McGovern, along with Senators and various 
other Members of Congress, heard these calls and added 65 words 
to the law to include all other gross human rights abusers. The 
law passed; this is one of the few things in Washington where 
there is no partisanship. This is bipartisan. Torturers and 
murderers have no support from anybody, and, as a result, it 
passed 92 to 4 in the Senate, and 89 percent in the House of 
Representatives, and it was signed into law.
    And the interesting thing that happened after it was signed 
into law was that, as I started speaking about it at 
conferences around the world, I started getting approached by 
people who have been victimized in other countries. I was 
approached by people from Tibet, from Venezuela, from Bahrain, 
from China, and I started hearing their stories, and they all 
asked me, ``How can we do the same thing for our country?'' And 
the answer was, there is no reason why an Uzbek human rights 
abuser should have a better deal than a Russian human rights 
abuser.
    And I am very grateful for Congressmen Smith and McGovern 
who decided to initiate and introduce this law in January of 
this year, because this is really the new technology for 
dealing with human rights abuse.
    It is not new to impose sanctions, but what is new is that 
we are living in a globalized world now where, you know, 
perhaps the Khmer Rouge didn't go on vacation to San Tropez, 
but members of the Kazakhstani regime, who are perpetrating 
human rights abuses, are seen there all the time.
    And in a globalized world we have some leverage to do 
something here, and this is something we can do. And so I would 
be very glad to have a wider support than just your support 
here, and that we make this into law like the Russian version 
of the Magnitsky Act, and to leave Sergei Magnitsky with a 
legacy that his death wasn't a meaningless death.
    Thank you very much.
    [The prepared statement of Mr. Browder follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ----------                              

    Mr. Smith. Mr. Browder, thank you so very much.
    Rebiya Kadeer.

    STATEMENT OF MS. REBIYA KADEER, PRESIDENT, WORLD UYGHUR 
                            CONGRESS

    [The following statement and answers were delivered through 
an interpreter.]
    Ms. Kadeer. Good afternoon, Chairman Smith, and Ranking 
Member Bass, and members of the subcommittee. It is an honor to 
be here today, and I am grateful to you for inviting me to the 
hearing on the Global Magnitsky Human Rights Accountability 
Act.
    And I cannot speak English, so, therefore, I prepared a 
written statement, so my assistant Omer Kanat will read my 
statement to you.
    I am very honored to be here today, and I wish to express 
my profound appreciation to Representative Smith for inviting 
me to testify. Representative Smith has been a champion in 
Congress for those who suffer from human rights abuses and has 
spoken out on behalf of the Uyghur people.
    The Sergei Magnitsky Rule of Law Accountability Act of 2012 
was a commitment to defend universal human rights standards, to 
hold egregious human rights violators in Russia responsible for 
their acts. The U.S. Congress should be praised for passing 
this historic legislation on human rights, and President Obama 
should be commended for signing it into law.
    The Magnitsky Act highlighted the profound injustice 
surrounding the case of Sergei Magnitsky and demonstrated that 
proactive measures targeting human right abuses can have 
immediate results. Therefore, the Global Magnitsky Human Rights 
Accountability Act is an important milestone in the protection 
of human rights worldwide. Applying the Magnitsky Act 
universally to include all officials, not just Russian ones, 
who order or commit gross human rights violations is critical 
and urgently needed.
    Across the globe, people are in dire need of the kind of 
protection of the Global Magnitsky Act will afford. State 
officials who engage in egregious human rights abuses often rob 
their citizens of public money and invest it overseas. It is 
right to deny these officials access to the United States' 
financial apparatus and the territory of the United States.
    In China, the Uyghur people face massive, systematic, and 
human rights violations on a daily basis. This pattern of human 
rights abuses has long been in place. The annual reports of 
human rights practices in China issued by the U.S. State 
Department have detailed a broad range of rights concerns 
regarding Uyghurs, including enforced disappearances; jailing 
of political dissidents, journalists, and Webmasters; 
repression of independent religious leaders; forced abortions; 
destruction of cultural heritage; restrictions of movement; 
tight controls on freedom of expression, particularly on the 
Internet; marginalization of the Uyghur language in education 
and society; pressures exerted on foreign governments to deport 
Uyghur refugees; and targeted surveillance.
    Since Xi Jinping became China's President 2 years ago, 
human rights violations of the Uyghur people have intensified. 
Excessive force and extrajudicial killings are a feature of a 
Chinese state's security approach to the region. The 
disproportionate use of force during house-to-house searches, 
at security checkpoints, and during peaceful demonstrations 
have led to state-initiated violence. Credible allegations of 
state violence in Hanerik, Elishku, Alaqagha, and Siriqbuya 
merit further investigation.
    Furthermore, the Chinese state's persecution of Uyghur 
academic Ilham Tohti and his students demonstrates the highly 
vindictive and paranoid nature of the Chinese regime. Using 
legitimate and peaceful means to initiate a meaningful dialogue 
with the state on the deplorable conditions facing the Uyghurs, 
Ilham Tohti was targeted by the Chinese authorities and 
sentenced to life in prison in a legal process that was highly 
politicized.
    The expansion of the Magnitsky Act to apply universally to 
all officials who have directed, ordered, or committed gross 
human rights violations will show strong American leadership to 
protect the fundamental human rights of all people around the 
world. If this act becomes law, it will have a profound ripple 
effect, because mere listing some of the most well-known human 
rights violators in authoritarian states like China will send a 
powerful message to low-ranking officials that their criminal 
actions will not be immune to international scrutiny, 
condemnation, and consequences.
    International scrutiny is imperative to achieve tangible 
results in human rights. My case is example of what can be done 
when human rights violators are publicly named. Without 
international pressure and concern, I could have been tortured, 
or even killed, in prison. However, not everyone is as lucky as 
me. Many Uyghurs face cruel and unusual torture and punishment 
in the Chinese prison system every day.
    Enacting a Global Magnitsky Act will protect the 
fundamental human rights of the oppressed and save the lives of 
many peoples, including the Uyghurs. They will be grateful to 
the U.S. for taking an important step in the global protection 
of human rights around the world.
    There may be concerns that such an act will directly impact 
bilateral relations with authoritarian states. It must be noted 
that this act doesn't specifically target a particular country 
or a head of state. It only targets individuals who are the 
most egregious human rights violators, or are the more corrupt 
officials, and who commit such violations under his or her 
official capacity.
    Therefore, the negative impact of this act on bilateral 
relations would be minimal, while its positive impact on 
improving global human rights and creating a model for other 
countries to follow would be huge.
    Thank you.
    [The prepared statement of Ms. Kadeer follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
 
    
                              ----------                              

    Mr. Smith. Thank you so very much, Ms. Kadeer.
    Mr. Weinstein.

  STATEMENT OF MR. KENNETH R. WEINSTEIN, PRESIDENT AND CHIEF 
              EXECUTIVE OFFICER, HUDSON INSTITUTE

    Mr. Weinstein. Thank you, Chairman Smith, Ranking Member 
Bass, Representative Cicilline. I deeply appreciate the 
invitation to appear before you today to discuss Chairman 
Smith's bill, H.R. 624, the Global Magnitsky Human Rights 
Accountability Act, as well as the broader issue of corruption 
as an affront to human rights and a threat to U.S. national 
security. I want to applaud your moral courage and your 
leadership on these issues, which has been critical in the past 
and is needed as we go forward.
    Throughout the world, corruption undermines the rule of 
law, it erodes confidence in democratic accountability, it 
threatens representative government, and thereby poses a 
fundamental challenge to human rights. When corruption is 
highly entrenched, economies are plundered and repression is 
often brought to bear against citizens and civic organizations 
demanding accountable governance.
    Corrupt regimes, as we now see on a daily basis, also exert 
a very destablizing influence on international affairs. One 
only need to rapidly review the headlines to gain a sense of 
how politically motivated violence is fueled by profiteering 
and bribery, especially where weak governance is in place. Look 
around at the turmoil following the Arab Spring, the war in 
Ukraine, and you'll see different facets of the danger that 
corruption poses to peace, prosperity, and freedom worldwide.
    Whether it be in Afghanistan, Syria, Iraq, or Libya, areas 
of significant destabilizing conflicts, vast levels of graft 
and cronyism have been crippling both national and local 
governments. Corruption serves as a rallying cry for extremist 
groups and is an obstacle to encountering them effectively on 
the battlefield.
    Across Europe, and we have heard a bit about Asia, 
authoritarian kleptocracy is a particularly dangerous 
manifestation of this phenomena. Beyond internal oppression, 
these regimes are increasingly willing to export bribery and 
extortion, to support client states, coopt foreign political 
factions, and undermine the advance of democracy abroad. And 
these same kleptocracies, as we have heard, are willing to 
employ appalling violence to preserve the parasitic 
arrangements that keep them in power.
    We saw what happened in the streets of Kiev in 2014 when 
citizens took to the streets to oust Viktor Yanukovych, the 
corrupt patron of Moscow, and they stood their courageously 
despite a wall of batons and a hail of bullets that killed more 
than 100 of their countrymen.
    Their popular will for closer ties to Europe, for 
democratization, and freedom prevailed, but Russia responded 
with invasion, annexation, and occupation. To the Kremlin, a 
free and democratic Ukraine is an unacceptable counterpoint to 
the corruption and authoritarianism of the Putin regime that we 
have heard so much about already.
    As a result, a sovereign state at the heart of Europe faces 
military aggression proscribed by the Budapest Memorandum on 
Security Assurances, the Helsinki Final Act, and Article Two of 
the U.N. Charter.
    Meanwhile, fringe political parties throughout Europe, both 
East and West--and not simply fringe political parties--are 
being buoyed and bankrolled by the same corrupt governments or 
private entities that belong to government officials in these 
countries fueling the war in Ukraine.
    Veiled nuclear threats and provocative military maneuvers 
seek to rattle the nerves of our European partners while 
aggressive media and social media campaigns spreads 
disinformation, distract attention from the truth, and sow 
discord. These operations divide our allies, discredit the NATO 
security compact, and call into question the values of the 
post-Cold War political order.
    Fortunately, the inherent superiority of both the Western 
political and financial order grants the U.S. leverage to 
confront this complex national security threat. As has been 
noted, corrupt officials often take advantage of open societies 
to shelter their assets and gain safe haven from political 
pressures at home.
    With apartments and villas of grand standing and large bank 
accounts abroad, kleptocrats and their cronies and enablers can 
enjoy the benefits of freedom and rule of law that they or 
their associates deny to their fellow citizens. This is 
especially the case when public officials, in collusion with 
private entities, are allowed to abuse their authority with 
impunity.
    The legislation that you have proposed, the Global 
Magnitsky Human Rights Accountability Act, offers the United 
States an opportunity to close this escape valve and to refuse 
to serve the interests of kleptocrats and our strategic 
adversaries. This bill is complementary to U.S. policy and can 
be narrowly and appropriately tailored.
    The Obama administration's 2014 fact sheet on the U.S. 
Global Anticorruption Agenda identifies corruption as a growing 
national security threat to our country and our allies around 
the world. Furthermore, it notes that the United States 
continues to take action to prevent the U.S. legal and 
financial systems from being exploited by those who engage in 
or who launder the proceeds of corruption.
    Government entities, including the FBI, the Department of 
Justice, the Department of State, and the Department of 
Treasury are active in countering kleptocracy. This bill would 
complement their work by providing a mechanism for 
congressional action to sanction specific individuals most 
responsible for human rights abuses and threats to U.S. 
national security.
    The Global Magnitsky Act is neither a blank check to 
Congress nor an overreaching mandate imposed on the executive 
branch. Congress' authority respecting the application of the 
Magnitsky Act is sensibly balanced by the diplomatic and 
national security prerogatives or priorities set by the 
executive branch.
    The bill provides the President with broad authority to 
determine the scope of sanctions and grant waivers, as 
appropriate, in the interest of national security. Conversely, 
the bill's reporting requirement encourages the President to 
seriously consider congressional recommendations and make 
scrupulous determinations based upon its findings.
    Finally, the bill reflects beliefs broadly shared by the 
American public and our partners in the international 
community. The U.S. is the indispensable nation, the world 
leader primarily responsible for promoting the rule of law, 
good governance, human rights, and a peaceful international 
order.
    We are a leader in confronting criminal regimes in the name 
of freedom. Global Magnitsky will build on this legacy, setting 
an example for others to follow in refusing to lend legitimacy 
to human rights abusers by sheltering their stolen assets and 
welcoming them to our shores.
    The bill wisely sanctions only individuals. It leaves 
important multilateral trade and cultural exchanges upon which 
citizens of all countries benefit untouched. The bill also 
expresses solidarity with those suffering under corrupt 
regimes, taking actions against human rights abusers on behalf 
of those who cannot do so themselves.
    Accordingly, the bill represents an opportunity to take a 
stand against destabilizing public corruption in a conspicuous, 
visible, and effective manner, thereby lending support to the 
fight for democracy, rule of law, and freedom throughout the 
world.
    Last year, Hudson Institute founded the Kleptocracy 
Initiative, a program aimed at addressing the threats posed by 
corrupt authoritarian regimes to Western democracy and U.S. 
national security. We founded this initiative in part because 
of the threat posed to Western democracies and Western 
alliances by the growing financial leverage of kleptocrats and 
their allies in the economies of the West.
    Given the threat that they pose to democracy in their own 
countries and to the defense of freedom abroad, the individuals 
responsible for unconscionable acts of corruption and human 
rights violations should not be granted sanctuary on our soil 
or economic refuge in our financial sector. As such, I applaud 
the Global Magnitsky Act as an effective and appropriate 
countermeasure against these criminal regimes.
    By refusing to allow abusers of human rights the privilege 
of access to our financial institutions and entry upon our 
soil, the Global Magnitsky Act represents a momentous 
opportunity to demonstrate continued American leadership on 
this most critical effort.
    Thank you again for inviting me to testify. It is an honor 
to speak before this august subcommittee on an issue of such 
consequence to our vital national interests.
    [The prepared statement of Mr. Weinstein follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    
                              ----------                              

    Mr. Smith. Dr. Weinstein, thank you very much for your 
testimony and insights.
    Dr. Calingaert.

     STATEMENT OF DANIEL CALINGAERT, PH.D., EXECUTIVE VICE 
                    PRESIDENT, FREEDOM HOUSE

    Mr. Calingaert. Chairman Smith, Ranking Member Bass, 
Congressman Cicilline, thanks so much for the invitation to 
speak today. I applaud your leadership on human rights issues 
and especially for introducing the Global Magnitsky Human 
Rights Accountability Act.
    Earlier today, Freedom House released its annual global 
survey of press freedom, and the findings were really pretty 
grim. We see the lowest rating in 10 years. In a separate 
report where we look at political and civil rights generally, 
we have seen 9 straight years of decline.
    What we are seeing, in essence, is a resurgence of 
authoritarian governments. And these governments are using 
tactics that are more and more brazen, and they are really 
showing open disdain for basic democratic standards. To pick 
just one example, in Egypt, over 1,400 political activists have 
been sentenced to death in mass trials that did not even have 
basic elements of due process. The world is becoming more 
hostile to our values and also our interests, because 
undemocratic forces, particularly authoritarian governments, 
are driving political change.
    The U.S. needs to take the initiative on human rights away 
from authoritarian governments, and the best way to do this is 
to target their weak spots; namely, impunity and corruption.
    Why should we hold individual officials to account for 
human rights abuses? Well, first, to put increased pressure on 
governments to respect human rights--and in most cases this 
means to follow their own constitutions and live up to their 
own commitments to international human rights agreements.
    Second, to deter future human rights violations. If a 
penalty hangs over a perpetrator's head, he or she may think 
twice about committing the crime.
    Third, to force authoritarian rulers to make a difficult 
choice. Either they can protect the most repugnant officials in 
their regimes and attract further scrutiny to the worst aspects 
of their rule, or they can cut loose the very officials who do 
their dirty work and keep them in power.
    Why should we focus on corruption? Because it is the 
Achilles' heel of authoritarian regimes. For ordinary citizens, 
human rights are sometimes a bit abstract, but they fully 
understand the harm caused by corruption. They detest the 
injustice of rulers enriching themselves at the public's 
expense, particularly when citizens are struggling to make ends 
meet.
    The popular uprising in Ukraine against then-President 
Yanukovych was in large part a reaction to the corruption in 
the government. The Sergei Magnitsky Rule of Law Accountability 
Act of 2012 provided a sound policy instrument to address human 
rights abuses in Russia. It introduced a measure of 
accountability for the perpetrators of those abuses.
    The law carefully targeted visa bans and asset freezes on 
individuals responsible for gross human rights violations, and 
it in no way harmed ordinary Russians. The Global Magnitsky 
bill would direct the President to extend the same consequences 
to perpetrators of human rights abuses and corrupt officials 
anywhere in the world.
    The global scope of this bill is a key strength. It means 
no country is singled out, and it would apply to countries like 
China and Saudi Arabia that tend to escape criticism for their 
human rights abuses because of competing economic or security 
interests.
    There are a great many others around the world like Sergei 
Magnitsky who have been targeted for abuse because they dare to 
call for justice or freedom. To cite just a few recent 
examples, Gao Yu was sentenced to 7 years in prison in China, 
really for doing her job, for being a forthright and principled 
journalist.
    Raif Badawi was sentenced in Saudi Arabia to 10 years in 
prison and 1,000 lashes because his Web site hosted criticism 
of senior religious figures. The Zone Nine bloggers in Ethiopia 
face a possible death sentence on terrorism charges because 
they documented human rights abuses and reported on political 
prisoners.
    In Azerbaijan, Rasul Jafarov was sentenced to 6\1/2\ years 
for exposing the government's poor human rights record at a 
time when that government is trying to burnish its 
international credentials and preparing for hosting the 
European games in June. And also, in Azerbaijan, Khadija 
Ismayilova was imprisoned because she dared to investigate and 
publish news articles about corruption by the family of the 
President Aliyev. The list could go on and on.
    The perpetrators of these and similar abuses are rarely 
denied the benefit of entry to the United States or access to 
our financial system. The Global Magnitsky bill would change 
that. If passed, this bill may elicit some angry responses from 
some authoritarian rulers or complicate U.S. relations with 
some governments. But what can they say? They can't openly 
admit that they harbor individuals responsible for human rights 
abuses and corruption.
    When the United States defends human rights, it usually 
faces resistance--that is expected--but we press ahead because 
we know that what we are doing is right, and we refuse to let 
authoritarian rulers dictate the terms of our relationship with 
them.
    We can't accept that the price of security or economic 
cooperation is to look the other way on human rights 
violations. We need to be confident enough both to continue the 
cooperation with other governments but still to hold human 
rights abusers and corrupt officials to account.
    Thank you.
    [The prepared statement of Mr. Calingaert follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Smith. Thank you very much for your testimonies, and 
for yours, Dr. Caligaert.
    Let me just ask a few opening questions. This bill is all 
about micro-targeting. It is to ensure that the people who 
commit the crime, while they may not do time, they certainly 
won't be able to come to the United States and buy and sell 
assets as well as physically come here. It makes them 
inadmissible.
    Since I did write the law in 2000 which targeted the forced 
abortion perpetrators in the People's Republic of China, I had 
asked the Congressional Research Service to tell us what they 
think the number of people who were made inadmissible turned 
out to be, and the report came back that it was less than 30, 
which was an absolute horror to me.
    You know, 14 years later, although the report from the CRS 
was a few years ago, there was a lack of enforcement that I 
found to be appalling. And Rebiya Kadeer in the past has talked 
about how the Uyghurs are targeted for the coercive population 
control policies as a matter of genocide, not just to thin the 
herd, to put it in a very crude way, because that is how the 
Chinese Government looks at it, but as an act of genocide.
    China gets a pass frequently when it comes to human rights. 
I wrote the Trafficking Victims Protection Act. By law, they 
had to place China on Tier 3 because of its residing on the 
watch list for the requisite number of years. Then, as soon as 
the government--in this case the Obama administration--had the 
opportunity to put them back onto the watch list, they did it, 
which was appalling to me.
    And so what I am suggesting is, how do we ensure that the 
mega countries, the big countries, the ones with whom we have 
large amounts of trade, perhaps those that we are afraid of, 
and I do think there is far too much fear at State on the PRC--
I mean, it is easy to focus on Belarus and others, and I know 
because I know that law, the Belarus Democracy Act. Two 
hundred-plus people are on the list. The European Union 
parallels our list. Lukashenka's companies and other cronies of 
his cannot do business here or in Europe, which is a great 
thing, but Belarus is ``this'' big [makes diminitive hand 
gesture] as compared to China.
    So, please give your thoughts on how do we ensure 
effectiveness. We purposely put a national security waiver in. 
As Bill Browder knows, no national interest waiver, which is 
one of the weakest of the standards. We have reporting to give 
us reasons why they are not taking action. Many will feed into 
the list of perpetrators that the State Department has to look 
at to put on the list, including NGOs.
    It is a big question, because, you know, I have writing 
human rights law all my career, 35 years here, and we always 
take a pass when it comes to the Chinas of this world, but we 
will focus on Honduras, we will focus on something smaller 
where retaliation is not something we are worried about.
    Bill.
    Mr. Browder. Having had 2 years of experience with just 
this issue, so the Magnitsky Act was passed in December 2012, 
and I have now been trying since then to get people on the 
Magnitsky list. This is an example, not quite as big as China, 
but Russia is a country that the current government hasn't 
wanted to upset.
    And there is one provision of this law which is a very, 
very valuable provision of law, which we have used and I am 
trying to use going forward; there is something called a 
congressional trigger in this law. And the congressional 
trigger means that the chairman and ranking member of a certain 
number of committees can demand the Treasury Secretary and the 
State Department to review names of people to be sanctioned, 
and then they have to respond within 120 days with a 
determination of whether they are or are not human rights 
abusers or whether they would want to invoke executive 
privilege or a confidentiality provision.
    But the beauty of this law is that it is the one situation 
that allows Congress oversight over human rights policy of the 
administration. And it doesn't matter whether it is a 
Democratic administration or a Republican administration. 
Administrations generally don't like to do things, and that is 
the beauty of Congress. And so it doesn't work perfectly. I 
have to come to Washington a regular basis. I am here this week 
doing this, but it is better than just leaving it to the 
devices of the administration to do something.
    Mr. Smith. Anybody else?
    Mr. Calingaert. I agree with Bill Browder that I would 
expect, let us say, slow walking from any administration if the 
bill passes, but I think it would change the dynamic of the 
debate. In the human rights field, there is a lot of focus on 
abuses themselves and bringing them to light and condemning 
them. There are efforts to support human rights defenders and 
acknowledge their courage, but there are these missing pieces 
of really figuring out who is responsible and when and how will 
justice take place.
    I think there is growing attention in the human rights 
field, but there could be much more of that. I wouldn't claim 
this is in any way systematic, but just sort of asking experts 
in the field, both about China and Iran, about how difficult 
would it be to compile information on the officials responsible 
for the kind of gross violations that we are talking about.
    And, you know, some groups are, but my sense is it is 
probably not as systematic as it could be, and I think the 
opening that the bill H.R. 624 provides would really invite 
this, because it is not just an opportunity for Congress to 
suggest names to add to the visa ban list, but also opportunity 
for human rights organizations to do so.
    And I think by opening that door you will get a response, 
and then it puts the onus on the administration to explain who 
they are adding to the list, and if they are keeping people off 
the list do they have good reasoning for that.
    Mr. Smith. If I could, on the issue of retaliation and 
commercial interests, I expect there will be a significant 
pushback from the Chamber of Commerce perhaps. I am a great 
believer that the Foreign Corrupt Practices Act had a 
tremendous impact on ensuring that our businessmen and women 
were not tricked or coerced or even unwittingly, or perhaps 
even willingly, become bribers of officials.
    By having that standard, it actually makes it more likely 
when we deal in other countries that we just say, ``Look, I 
can't do this. I can't break the law.'' And it helps level the 
playing field, at least for U.S. competitors, but not 
necessarily international.
    But I am wondering if this will incentivize this bill, more 
transparency, respect for international human rights, or do you 
think the argument that we will have lodged against it that it 
will hurt commercial interests--I mean, to this day, I am 
shocked beyond words--when Bill Clinton delinked Most Favored 
Nation status on May 26, 1994, with China and human rights, and 
we lost leverage as never before after all of us lauded him for 
linking it in the first place.
    Profits trumped human rights, and I have concerns that that 
pressure will build. I mean, we are seeing it even with the 
fast track proposal that is likely to be up on the floor of the 
House and the Senate for TPP. In two Congresses in a row, House 
has passed my bill called the Vietnam Human Rights Act, all 
kinds of benchmarks, and Vietnam gets a pass. As they did with 
the Bilateral Trade Agreement, things got worse after the trade 
agreement, not better.
    And so how do we make the case that this will lead to more 
transparency, better practices? Would any of you like to take 
that on? Because I think besides, you know, torture, which we 
all at this witness table, and on this side of the dais as 
well, are passionate about, I think this makes for a better 
environment for doing business, because corruption does hijack 
democracy.
    I chair the delegation to OSCE Parliamentary Assembly. One 
year, in Bucharest, the whole theme was corruption and how it 
hijacks democracies. And I don't think that is readily 
understood. So if any of you would like to take a shot at that? 
Bill.
    Mr. Browder. Well, I think I am the case study in why this 
bill is important. I was the largest foreign investor in 
Russia, and the corruption of the regime led to them kicking me 
out of the country and trying to seize all of my assets. When a 
young lawyer intervened, he was then effectively executed in 
slow motion. And I had no protection whatsoever.
    And so, well, I mean, it is kind of absurd for the--it is 
like almost what I call a Stockholm syndrome for the people who 
are still out there, to be trying to defend their hostage 
takers by saying they shouldn't do this. I mean, basically, 
what this does is gives businesses a tool to say that if your 
business is raided by a bunch of corrupt officials, there is 
consequence to those officials.
    And so it is an invalid argument to be making. They want to 
make that argument; I guarantee you. It is both an immoral and 
an invalid argument to say that by creating consequences for 
human rights abuses connected to corruption that that is bad 
for business. It is good for business. It is just not right.
    Mr. Smith. We will ask the administration to testify, to 
give their views on the bill at our next hearing on this, but 
we will also write to them in the meantime to try to get their 
input to see if they can support this.
    I am afraid that part of the objection will be, and I would 
appreciate your view on this, they will say the Office of 
Foreign Assets Control does not have sufficient personnel. If 
past is prologue, we will probably get a hyperinflated number 
as to how many people need to be working this.
    We got this on the International Megan's Law, we got it on 
a trafficking bill, we got it on a religious freedom bill. They 
say people can't be double- and triple-hatted and make this a 
part of their portfolio. And then CBO comes in and gives us a 
score that becomes, you know, a killer cost.
    Do we have resources now sufficient, or do we need to be 
hiring more people, do you think?
    Mr. Calingaert. I can't give a detailed assessment. I would 
make a couple of points. First of all, I would hope that if the 
bill passes that Congress would also look into the possibility 
of authorizing some additional funds for implementing, because 
even if the, let us say, State Department and Treasury 
Department agree, you will want to make sure that they have the 
people to follow up on the names that are submitted from 
Congress, from others.
    I mean, and, you know, you heard the context of my remarks. 
I think this act, and its implementation, should really receive 
priority because it can change this much larger dynamic in the 
world. I mean, obviously, we keep pushing on all of the 
different fronts of legislation and the work that human rights 
groups do, but I have a hard time thinking of any other tool 
out there that really just pinpoints the most noxious aspects 
of the worst regimes out there and could really be effective 
with the tools that we have.
    Mr. Smith. Ms. Kadeer.
    Ms. Kadeer. Wang Lequan was the Party Secretary of the 
Xinjiang Uyghur Autonomous Region, and he ordered in July 2009 
the suppression and crackdown, and directly involved in the 
killing of the hundreds of the Uyghurs. And he was of course 
removed from his position, but he was transferred to Beijing, 
and he is in Beijing.
    He was also a corrupt official. He was involved in 
corruption as well. But the government is protecting this 
individual, so, therefore, now he is in Beijing in a safe 
place.
    And after Wang Lequan, Zhang Chunxian was elected as the 
Party Secretary of the Xinjiang Uyghur Autonomous Region. He 
was also involved in this crackdown, ongoing crackdown, in 
Uyghur autonomous region. But he was invited to Capitol Hill in 
2009 by a Senator, so it is a surprise how he was granted visa.
    So there are hundreds and thousands of people involved in 
these kinds of crackdowns in human rights abuses, in 
corruption, so it should start from Capitol Hill, from the 
Members of the Congress. Members of the Congress should be very 
careful in inviting the people who are involved in these kind 
of corruption and human rights abuses.
    This Global Human Rights Accountability Act should also 
include the Chinese officials, especially the regional 
officials who are directly involved in human rights abuses and 
killing of the peaceful protesters, Uyghurs, in the region, for 
all of the Chinese officials, of course, but the regional 
officials are very much involved directly in these abuses.
    Mr. Smith. Yes, Bill.
    Mr. Browder. Having dealt with a lot of difficulties and 
seen what the costs are in Russia, I think it is a bad argument 
for them to be saying it is going to cost us, we are going to 
have to employ a few more people. I live by the philosophy that 
a dollar spent fighting bad, fighting evil, is worth $100 
trying to do good.
    And there are many, many programs that are very expensive 
where we are trying to do good, but this is one of these things 
where in the private sector almost nobody wants to fight bad, 
because fighting bad then involves retaliation, it involves 
personal risk. I am a perfect example of that risk.
    This is an example where the government needs to do this, 
because the private sector doesn't. And so the investment is 
relatively minimal. I believe that it was a $6 million 
investment in the 2012 Sergei Magnitsky Rule of Law 
Accountability Act. And the amount of money that is now being 
spent to support Ukraine is going to be in the billions.
    And so I think that it would be a stupid argument for them 
to make that they can't employ a few more people to analyze a 
few more documents. It is like saying we can't afford judges, 
so we should let criminals go free.
    Mr. Smith. Well put. Unfortunately, there is a vote on the 
floor with 2\1/2\ minutes left, and then there might be a 
followup to this vote. I do have some additional questions. I 
would like to submit it to you, and perhaps you could get back 
to us for the record.
    But thank you for your leadership. Thank you for your 
testimonies. It certainly has been most helpful and insightful. 
And I look forward to working with you going forward.
    The hearing is adjourned.
    [Whereupon, at 3:36 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
